                               O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



A cting Ins pe ctor Ge ne ral



Incons is te nt Be ne ficiary Entitl

                                   e m e nt Pe riods


Th e attach e d finalre port e ntitl e d, “Incons is te nt Be ne ficiary Entitl e m e nt Pe riods ”
(A-09 -9 7-21003), de s cribe s tw o incons is te ncie s in th e e ntitl  e m e nt pe riods for
re tire m e nt and s urvivors ’be ne fits . Th e obje ctive of our re vie w w as to as s e s s th e
financialim pact re s ul  ting from th e s e incons is te ncie s .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                       Jam e s G. H us e , Jr.

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
                         h /6-1-9 8
SSA /O IG/O A /JTRUD EL/cl                    9 7-21003-FNL
Re port Fil
          e
                                 O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



A cting Ins pe ctor Ge ne ral



Incons is te nt Be ne ficiary Entitl

                                   e m e nt Pe riods


Th is finalre port de s cribe s tw o incons is te ncie s in th e e ntitl   e m e nt pe riods for
re tire m e nt and s urvivors ’be ne fits . Th e purpos e of th is re vie w w as to as s e s s th e
financialim pact re s ul   ting from th e s e incons is te ncie s . Th e O ffice of Ins pe ctor
Ge ne ral  , D e partm e nt of H e alth and H um an Se rvice s , dis cl   os e d th e s e
incons is te ncie s in tw o re ports , “  Firs t M onth of El   igibil
                                                                     ity”(O EI-12-89 -01260),
is s ue d M arch 19 9 1 and “    SocialSe curity Adm inis tration’      s Incons is te nt Entitle m e nt
Pe riod for Pe rs ons Born in th e Sam e M onth ”(A-09 -89 -00073), is s ue d June 19 89 .
Al  th ough s om e be ne ficiarie s h ave th e ir be ne fits d e l aye d, for m os t individual s th e s e
                                                           st
incons is te ncie s acce l e rate th e re ce ipt of th e 1 m onth of be ne fits . Th us ,
el im inating th e incons is te ncie s w oul   d re s ul
                                                       t in s ignificant s avings to th e program .

O ne incons is te ncy re s ults from pas t l e gis l
                                                   ation w h ich produce d diffe re nce s in th e
  st
1 m onth of e ntitl  e m e nt for various cate gorie s of re tire e s . For e xam pl    e , w ork e rs
are re q uire d to be age 62 for a ful   lm onth to be e ntitl   e d to re duce d be ne fits .
H ow e ve r, a s urviving s pous e is e ntitle d to re duce d be ne fits in th e m onth in w h ich
h e or s h e attains age 60. Lik e w is e , ful lbe ne fits for w ork e rs , s pous e s , and
s urviving s pous e s are firs t availabl e in th e m onth in w h ich th e individualattains
age 65. Th us , individual    s e ntitl
                                      e d to be ne fits in th e m onth of age attainm e nt w h e n
com pare d to th os e w h o are not e l  igibl e untilth e m onth afte r th e ir 62nd birth days
re ce ive an e xtra m onth of be ne fits . Th e s e e xtra be ne fits w il lcos t th e Social
Se curity Adm inis tration (SSA )an e s tim ate d $1.34 bil      lion ove r a 5-ye ar pe riod.

A s e cond incons is te ncy re s ul   ts from th e l
                                                   ack of a de finition of age attainm e nt in
th e SocialSe curity Act (th e A ct). W ith out an e xpl    icit de finition, SSA is re q uire d to
us e th e com m on l    aw de finition of age attainm e nt. Th is d e finition, w h ich h ol
                                                                                           ds
th at an individualattains a give n age on th e day be fore h is or h e r birth day, re s ul    ts
in diffe re nt e ntitle m e nt pe riods for individuals born in th e s am e m onth . For
e xam pl e , a pe rs on born on June 1 attains age 65 on th e l       as t day of M ay, and is
Page 2 - K e nne th S. A pfe l

e ntitl e d to ful lre tire m e nt be ne fits for M ay. H ow e ve r, an individualborn on any
oth e r day in June is not e ntitl      e d to be ne fits untilJune . Th us , a pe rs on born on th e
  st
1 day of any m onth is e ntitl         e d to an additionalm onth of be ne fits . Conve rs e l  y, in
s ituations w h e re be ne fits are de pe nde nt on a ch il    d be ing unde r a s pe cific age ,
be ne fits e nd 1 m onth e arl     y for a ch ild born on th e 1s t day of a m onth . O ve ral  l ,
th e s e diffe re nt e ntitle m e nt pe riods w illcos t SSA an e s tim ate d $130 m il  lion ove r
th e ne xt 5 ye ars .

W e re com m e nd th at SSA s ubm it a l     e gis l
                                                   ative propos alto e l  im inate th e s e
incons is te ncie s . Spe cifical ly th e propos als h oul  d provide th at e ntitl e m e nt to
age -bas e d be ne fits b e gin th e m onth fol  low ing th e m onth of age attainm e nt and
th at age attainm e nt occur on an individual        ’s birth day rath e r th an th e day be fore .
SSA did not agre e w ith our re com m e ndations .

                                        BACKGROUND

Prior to 19 81, al   lappl  icants for age -bas e d SocialSe curity re tire m e nt be ne fits w e re
el igible to be gin re ce iving be ne fits e ffe ctive w ith th e m onth th e y attaine d th e
re q uire d age . Surviving s pous e s coul     d el  e ct re duce d be ne fits b e ginning w ith th e
m onth th e y attaine d age 60. Individual         s , incl uding re tire d w ork e rs and th e ir
s pous e s , e l
               e cting re duce d re tire m e nt be ne fits coul   d re ce ive th e m for th e m onth
th e y attaine d age 62. Individual      s el e cting ful  lre tire m e nt be ne fits could re ce ive
th e m be ginning w ith th e m onth th e y attaine d age 65.

Th e O m nibus Budge t Re concil    iation A ct of 19 81 (Pub l   ic Law 9 7-35)am e nde d th e
A ct s o th at an individualappl   ying for re duce d re tire m e nt be ne fits could not re ce ive
                   st
th e m untilth e 1 m onth th rough out w h ich s uch individualw as age 62. Th e
le gis l
       ation did not affe ct th os e e le cting ful
                                                  lre tire m e nt be ne fits at age 65 nor th os e
appl  ying for re duce d s urvivor be ne fits at age 60.

Th e A ct al  low s appl icants to re ce ive re duce d be ne fits b e fore attaining norm al
re tire m e nt age . Th e m onth l
                                 y be ne fits are re duce d by a fixe d pe rce ntage for e ach
m onth prior to th e norm alre tire m e nt age . Th e fol     low ing tabl e lis ts th e re duction
factors curre ntl   y appl icabl
                               e to e arl y re tire m e nt for th e m ajor cate gorie s of
be ne ficiarie s .

      Type of Be ne ficiary                             Re duction Factor
                               Th e be ne fit is re duce d 5/9 of 1 pe rce nt for e ach m onth be fore
      W ork e rs               norm alre tire m e nt age
      Spous e s of re tire d   Th e be ne fit is re duce d 25/36 of 1 pe rce nt for e ach m onth
      w ork e rs               be fore norm alre tire m e nt age
                               Th e be ne fit is re duce d 19 /40 of 1 pe rce nt for e ach m onth
Page 3 - K e nne th S. A pfe l

       Surviving s pous e s           be fore norm alre tire m e nt age
Th e Congre s s h as e ncourage d individual          s to de l
                                                              ay re tire m e nt by incre as ing th e
re tire m e nt age , th e re by incre as ing th e re duction pe rce ntage for age 62
re tire m e nts , and offe ring be ne fit incre as e s for de l aying re tire m e nt. In 19 83,
Congre s s am e nde d th e A ct to rais e th e norm alre tire m e nt age from 65 to 67. Th e
ch ange w il   lbe im pl  e m e nte d in s te ps b e ginning w ith w ork e rs w h o attain age 62 in
th e ye ar 2000. In addition, s ince 19 72, th e A ct h as provide d an ince ntive for
de laying re tire m e nt. Th is provis ion incre as e d re tire m e nt be ne fits for individual     s by
one -tw e l fth of 1 pe rce nt for e ach m onth th at re tire m e nt w as d e l    aye d. Th e
Congre s s am e nde d th is provis ion in 19 77 and again in 19 83, e ach tim e incre as ing
th e ince ntive . For individual      s attaining age 62 in 19 9 7 or 19 9 8, re tire m e nt
be ne fits w il lbe incre as e d by one -h al   f of 1 pe rce nt for e ach m onth th at re tire m e nt
is d e laye d be tw e e n norm alre tire m e nt age and age 70. Th e rate incre as e s (in
incre m e nts ove r th e ne xt s e ve ralye ars ) to an annualrate of 8 pe rce nt for
individual   s attaining age 62 in 2005 and l          ate r. Th e fol ow ing tabl
                                                                       l            e s h ow s th e
curre nt age -bas e d re q uire m e nts for be ginning be ne fits unde r O l     d-Age , Survivors ,
and D is abil  ity Ins urance (O A SD I).

    Type of                          Entitl
                                          e m e nt to Ful
                                                        l                            Entitl
                                                                                          e m e nt to Re duce d
   Be ne ficiary                        Be ne fits Be gin                                   Be ne fits Be gin
                               st                                                    st
                        Th e 1 day of th e m onth      in w h ich th e        Th e 1 day of th e m onth th rough out
Re tire d w ork e r     w ork e r attains age 65                              w h ich th e w ork e r is age 62
Spous e of re tire d    Th e 1s t day of th e m onth   in w h ich th e        Th e 1s t day of th e m onth th rough out
w ork e r               s pous e attains age 65                               w h ich th e s pous e is age 62
                        Th e 1s t day of th e m onth    in w h ich th e       Th e 1s t day of th e m onth in w h ich
Surviving s pous e      s urviving s pous e attains    age 65                 th e s urviving s pous e attains age 60
D is abl
       e d s urviving   Th e 1s t day of th e m onth    in w h ich th e       Th e 1s t day of th e m onth in w h ich
s pous e                s urviving s pous e attains    age 65                 th e s urviving s pous e attains age 50

Th e ne xt tabl
              e s h ow s th e s ituations in w h ich age is a factor in e nding O A SD I
be ne fits .

                   Type of Be ne ficiary                                  Las t M onth of Entitl
                                                                                               e m e nt
 Ch il
     d of a re tire d, dis able d, or de ce as e d w ork e r      Th e m onth be fore     th e ch il
                                                                                                   d attains age 18
 Stude nt w h o is th e ch ild of a re tire d, dis able d, or     Th e 1s t day of th e   th ird m onth follow ing
 de ce as e d w ork e r                                           attainm e nt of age     19
 M oth e r or fath e r unde r age 62 w h o is caring for a        Th e m onth be fore     th e younge s t ch il
                                                                                                              d
 ch il
     d of a re tire d, dis able d, or de ce as e d w ork e r      attains age 16

Alth ough al  lof th e above re q uire m e nts are bas e d on age , th e A ct doe s not de fine
age attainm e nt. Lack ing a l  e gis l
                                      ate d de finition, SSA m us t us e a com m on l aw
                                       th
de finition w h ich date s back to 17 ce ntury Engl      and. Contrary to th e popul   ar and
Page 4 - K e nne th S. A pfe l

ge ne ral
        ly acce pte d m e aning of th e te rm , com m on l
                                                         aw de fine s age attainm e nt as
occurring on th e day be fore th e birth date corre s ponding to th at age .
                               SCO PE AND M ETH O D O LO GY

O ur obje ctive w as to de te rm ine th e financiale ffe cts on SSA ’              s trus t fund from
re de fining e ntitl e m e nt pe riods and age attainm e nt. To de te rm ine th e crite ria
com m onl    y us e d in e s tabl is h ing th e 1s t m onth of e l igibility and de fining age
attainm e nt, w e s urve ye d pe ns ion pl       ans for 12 organizations , incl        uding publ  ic
utilitie s , unive rs itie s , State gove rnm e nts , and corporations . W e al          s o dis cus s e d
e ntitle m e nt crite ria and age attainm e nt w ith official        s of th e Rail  road Re tire m e nt
Board. W e re vie w e d th e A ct and obtaine d a l           e galopinion from th e O ffice of th e
Couns e lto th e Ins pe ctor Ge ne ralon th e de finition of age attainm e nt and SSA ’                   s
us e of th at de finition. W e inte rvie w e d SSA official          s in Bal tim ore , M aryl  and, and
obtaine d cos t e s tim ate s from SSA ’        s O ffice of th e Ch ie f A ctuary. W e did not ve rify
th e accuracy of th e s e e s tim ate s . W e al      s o us e d data publ   is h e d in th e 19 9 6 Annual
Statis ticalSuppl      e m e nt to th e SocialSe curity Bul      e tin to com pute th e num be rs of
                                                                 l
be ne ficiarie s affe cte d by th e incons is te ncie s .

Th is e valuation w as conducte d in accordance w ith th e Q ual    ity Standards for
Ins pe ctions is s ue d by th e Pre s ide nt’
                                            s Councilon Inte grity and Efficie ncy.

                                     RESULTS O F REVIEW

W e note d th at curre nt l    aw h as cre ate d tw o incons is te ncie s in SSA ’     s re tire m e nt
and s urvivors program s w h ich w il       lcos t SSA about $1.47 bil        lion ove r a 5-ye ar
pe riod. O ne incons is te ncy is th at th e crite ria for de te rm ining th e 1s t m onth of
e ntitle m e nt to be ne fits varie s de pe nding upon th e cate gory of be ne ficiarie s . Th e
oth e r incons is te ncy is th at pe rs ons born on th e 1s t day of a m onth h ave diffe re nt
e ntitle m e nt pe riods th an pe rs ons born on oth e r days of th e s am e m onth . Th is
incons is te ncy provide s a w indfal      lto s om e age d be ne ficiarie s (i.e ., th os e born on
       st
th e 1 day of a m onth w h o can re tire 1 m onth be fore oth e rs born in th e s am e
m onth ), and a pe nal     ty to s om e w idow s and ch il   dre n (i.e ., th os e w h os e be ne fits
e nd a m onth e arl                                        d w as born on th e 1s t day of a
                      ie r th an oth e rs b e caus e a ch il
m onth ). Th e w indfal     lre pre s e nts a cos t to SSA w h il e th e pe nal   ty re pre s e nts a
s avings to SSA . W e re com m e nd th at SSA propos e l           e gis lation to addre s s th e s e
incons is te ncie s .

Firs t M onth 0f Entitl
                      e m e nt

O ne of th e re s ults of th e 19 81 am e ndm e nts to th e A ct is incons is te nt tre atm e nt of
individual s appl  ying for age -bas e d be ne fits . Th e 1s t m onth of e ntitl
                                                                                e m e nt for
Page 5 - K e nne th S. A pfe l

re duce d re tire m e nt be ne fits is d e fine d diffe re ntly from th at for ful  lre tire m e nt
be ne fits . A w ork e r is e ntitle d to re duce d be ne fits for th e 1s t m onth th rough out
w h ich h e or s h e is age 62. H ow e ve r, ful     lre tire m e nt be ne fits for w ork e rs , s pous e s
of re tire d or dis able d w ork e rs , and s urviving s pous e s are firs t avail   abl  e for th e
e ntire m onth in w h ich th e individualattains age 65. Lik e w is e , a s urviving s pous e
is e ligible for re duce d be ne fits for th e e ntire m onth in w h ich h e or s h e attains
age 60. Th us SSA is providing re tire m e nt be ne fits to th e s e individual           s for th e
m onth prior to th e ir birth day. Th e e xtra m onth of be ne fits w il        lcos t SSA an
e s tim ate d $1.34 bil  l
                         ion ove r a 5-ye ar pe riod. A ppe ndix A s h ow s th e e s tim ate d
cos ts by ye ar and by cate gory of be ne ficiary.

None of th e 12 organizations th at w e s urve ye d provide d be ne fits for th e ful lm onth
in w h ich an individualattaine d re tire m e nt age . O nl y tw o organizations provide d
any be ne fits for th at m onth and th e y prorate d th e be ne fits from th e date of birth .
Th e re m aining 10 de fine d th e 1s t m onth of e l
                                                    igibil
                                                         ity as th e m onth follow ing th e
m onth of attainm e nt of re tire m e nt age .

Th e A ct s h oul d provide a cons is te nt de finition of e l igibil
                                                                    ity for age -bas e d
re tire m e nt and s urvivors b e ne fits and furth e r Congre s s ’pol icy to e ncourage
de laye d re tire m e nt. Th e re fore , w e re com m e nd th at SSA s ubm it a l       ative
                                                                                  e gis l
                              st
propos alto de fine th e 1 m onth of e ntitl      e m e nt for al
                                                                lage -bas e d be ne fits as th e
m onth afte r th e individual    ’s birth day.

O ur prior re port, “ Firs t M onth of El  igibility,”containe d th e s am e re com m e ndation.
SSA did not concur be caus e im pl       e m e nting th e re com m e ndation w oul   d incre as e th e
age at w h ich w ork e rs and age d s urviving s pous e s q ual    ify for ful  lbe ne fits . In
addition, it w oul  d re s ul
                            t in a furth e r re duction in be ne fits for w ork e rs and s urviving
                   e for be ne fits b e fore th e y attain th e ful
s pous e s w h o fil                                               lre tire m e nt age .

Im pl e m e nting our re com m e ndation w oul     d de lay th e 1s t m onth of e ntitl  e m e nt for
m os t cate gorie s of be ne ficiarie s incl uding re tire d w ork e rs , s pous e s of re tire d
w ork e rs , and s urviving s pous e s . For e xam pl   e , cons ide r an individualborn on
June 15, 19 30. Unde r curre nt rul       e s , th at individualcoul    d h ave re ce ive d ful l
re tire m e nt be ne fits in June 19 9 5. Ifour re com m e nde d ch ange h ad be e n in pl         ace
in 19 9 5, th at s am e individualw oul    d not h ave be e n e ntitl   e d to fullre tire m e nt
be ne fits untilJul   y, a 1-m onth de l ay.

Del  aying th e 1s t m onth of e ntitl e m e nt to fullre tire m e nt be ne fits doe s not
                                        st
ne ce s s aril
             y m e an de l aying th e 1 m onth of be ne fits . Th is is b e caus e a s ignificant
num be r of pe rs ons e l  e ct to de l
                                      ay re tire m e nt and not re ce ive be ne fits in th e m onth
th e y attain th e re q uis ite age . Th e individualin th e e xam pl    e above w oul   d not h ave
notice d any diffe re nce if h e or s h e be gan re ce iving be ne fits in Jul    y 19 9 5 or l
                                                                                              ate r.
Page 6 - K e nne th S. A pfe l

Unde r e ith e r rul
                   e , th e individualw oul   d h ave be e n e ntitl e d to fullbe ne fits in Jul y or
any s ubs e q ue nt m onth . Bas e d on data from th e A nnualStatis ticalSuppl            e m e nt to
th e SocialSe curity Bul     l
                             e tin, as fe w as 159 ,500 but no m ore th an
49 8,300 be ne ficiarie s w oul    d h ave be e n affe cte d if th e ch ange h ad be e n
im ple m e nte d for 19 9 5. Th e re fore , as fe w as 4.1 pe rce nt but not m ore th an
12.8 pe rce nt of th e 3.88 m il    lion O A SD Iaw ards m ade w oul      d h ave be e n affe cte d in
        1
19 9 5. Se e A ppe ndix B for de tail      s of th is analy s is .

O ur propos alw oul    d h ave a m inim alim pact on th e be ne fit rate s for individual          s who
ele ct to re ce ive be ne fits b e fore fullre tire m e nt age . Individual   s w h o el   e ct to
re ce ive re duce d be ne fits w oul  d h ave th e m onth l y be ne fit re duce d by an additional
1-m onth factor. Us ing ave rage m onth l        y be ne fit am ounts publ     is h e d in th e A nnual
Statis ticalSuppl   e m e nt to th e SocialSe curity Bul     e tin, w e e s tim ate th at our
                                                             l
propos alw oul    d h ave re duce d th e ave rage be ne fit by onl     y $4 pe r m onth in 19 9 5.2

D e finition of A ge A ttainm e nt

For our prior re port e ntitl   e d “SocialSe curity’    s Incons is te nt Entitl
                                                                                e m e nt Pe riods for
Pe rs ons Born in th e Sam e M onth ,”w e s urve ye d s e ve n private ins urance carrie rs ,
        ocalgove rnm e nts , th e State of Cal
e igh t l                                           ifornia, and th e Fe de ralCivilSe rvice
Re tire m e nt Sys te m . Th e s e e ntitie s allus e d th e popul ar de finition th at an individual
attains a give n age on th e birth day corre s ponding to th at age . W ith th e e xce ption
of th e Rail  road Re tire m e nt Board, th e 12 organizations w e s urve ye d for th e curre nt
re vie w al s o us e d th e popul  ar de finition.

H ow e ve r, l ack ing an e xpl  icit de finition of age attainm e nt in th e A ct, SSA m us t us e
th e com m on l   aw de finition. Us ing th is d e finition rath e r th an th e popul     ar de finition
for age attainm e nt w il    lcos t SSA about $130 m il        lion ove r th e ne xt 5 ye ars , due to
incons is te nt e ntitle m e nt pe riods for individual   s born in th e s am e m onth . (Se e
A ppe ndix C). For e xam pl       e , an appl  icant for re tire m e nt is e ntitl
                                                                                 e d to be ne fits for
th e e ntire m onth during w h ich h e or s h e attains age 65. Since an appl              icant born
           st
on th e 1 day of a m onth attains age 65 on th e l              as t day of th e m onth prior to h is
or h e r birth day, be ne fits are payabl     e for th at e ntire prior m onth . H ow e ve r, an
appl icant born on any oth e r day of th e s am e m onth attains age 65 during th at
m onth and, th e re fore , doe s not re ce ive be ne fits for th e prior m onth . Lik e w is e , an
individualw h o w as born on th e 1s t or 2nd day of a m onth and w h o appl               ie s for a

1
  Th e pe rce ntage s w e re cal
                               cul
                                 ate d by dividing th e num be rs of be ne ficiarie s affe cte d (159 ,500 and
49 8,300)by th e totalaw ards (3.88 m il  lion).

2
    Th e ave rage m onth l  y be ne fit for re tire d w ork e rs in 19 9 5 w as $720. Th e m onth l y re duction
factor for re tire d w ork e rs is 5/9 of 1 pe rce nt. Th e re fore , incre as ing th e re duction factor by one
re s ults in de cre as ing th e ave rage be ne fit by $4 ($720 tim e s 5/9 of 1 pe rce nt).
Page 7 - K e nne th S. A pfe l

re duce d re tire m e nt be ne fit at age 62 re ce ive s 1 m ore m onth of be ne fits th an an
individualborn on a l     ate r day of th e s am e m onth .

A s im il ar incons is te ncy e xis ts for individuals w h o de lay re tire m e nt be yond th e
m onth of th e ir 65th birth day. Th os e w h o w e re born on th e 1s t day of a m onth can
re tire in th e m onth be fore th e ir 65th birth day. H ow e ve r, if th e y do not re tire at
th at tim e , th e m onth of th e ir 65th birth day is cons ide re d to be a m onth in w h ich
re tire m e nt is d e l
                      aye d, and be ne fit paym e nts w illbe incre as e d accordingl     y. But
individual   s born on oth e r days in th e s am e m onth w il    lnot h ave th at m onth tre ate d
as one in w h ich re tire m e nt is d e laye d, and be ne fits w il lnot be incre as e d. Th us ,
th os e born on th e 1s t w il lre ce ive a large r de l
                                                       aye d re tire m e nt cre dit th an th os e born
on oth e r days .

Th e s e incons is te ncie s provide a w indfal lto a s m allnum be r of appl  icants for O A SD I
be ne fits . SSA aw arde d O A SD Ibe ne fits to about 3.88 m il     lion individuals in 19 9 5.
Us ing th e popul   ar de finition of age attainm e nt ins te ad of th e com m on law
de finition w oul  d h ave de l aye d or re duce d approxim ate ly 68,000 aw ards , or about
2 pe rce nt of th e total   . (Se e A ppe ndix D ).

In contras t, th e com m on l     aw de finition of age attainm e nt pe nal      ize s m inor ch ildre n
                  st
born on th e 1 day of a m onth w h e n age is th e crite ria for te rm inating be ne fits . A
ch ild of a re tire d, dis able d, or de ce as e d w ork e r is e ntitle d to be ne fits unde r O A SD I
th rough th e m onth be fore h e or s h e attains age 18. A ch il           d born on th e 1s t day of
a m onth attains age 18 in th e m onth be fore h is or h e r birth day. Th e re fore , th e
ch ild is not e ntitle d to be ne fits for th at m onth . A ch il    d born on any oth e r day of
th e m onth , h ow e ve r, doe s not attain age 18 untilth e m onth of h is or h e r
18th birth day and is e ntitl   e d to be ne fits for th e prior m onth . For e xam pl     e , a ch il
                                                                                                     d
born on June 2 attains age 18 on June 1 and is e ntitl               e d to be ne fits for M ay. O n
th e oth e r h and, a ch il d born on June 1 attains age 18 on M ay 31 and is onl                y
                                                                               st
e ntitl
      e d to be ne fits th rough A pril  . Th us , a ch il d born on th e 1 day of a m onth w il         l
h ave be ne fits s toppe d 1 m onth e arl    ie r th an oth e r ch il
                                                                    dre n born on any oth e r day
during th e s am e m onth .

Sim ilarly, s pous e s unde r age 62 and w idow s unde r age 60 w h os e e ntitl         e m e nts are
bas e d on h aving ch il  dre n in th e ir care are pe nal  ize d unde r th e com m on l aw
de finition. Th e s e individual  s are e ntitl e d to re ce ive be ne fits untilth e m onth th e
younge s t ch il d attains age 16. A ch il     d born on th e 1s t day of a m onth re ach e s age
16 in th e m onth be fore h is or h e r 16th birth day, w h il    e a ch ild born on any oth e r
day of th e s am e m onth re ach e s age 16 in th e m onth of h is or h e r 16th birth day.
A s a re s ul
            t, s pous e s and w idow s w h os e y ounge s t ch il   d w as born on th e 1s t day of
a m onth h ave th e ir be ne fits s toppe d a m onth be fore oth e rs w h os e y ounge s t ch il    d
w as born on any oth e r day of th e s am e m onth .
Page 8 - K e nne th S. A pfe l


In 19 9 5, us ing th e com m on l   aw de finition of age attainm e nt caus e d paym e nts to
s top 1 m onth e arl  y for approxim ate l y 8,000 ch il    dre n w h os e be ne fits e nde d w h e n
th e y attaine d age 18 (or age 19 if a s tude nt). In addition, about 1,000 s pous e s
and 1,000 w idow s w h os e be ne fits w e re continge nt upon caring for a ch il           d unde r
age 16 re ce ive d 1 l  e s s m onth of be ne fits . Th e s e calcul ations are dis cus s e d in
A ppe ndix D .

Th e s e incons is te ncie s are unfair, providing w indfal    ls to s om e re tire e s and pe nal tie s
to oth e r be ne ficiarie s , e s pe cial
                                        ly ch il
                                               dre n and s urviving pare nts w ith ch il  dre n-in­
care . Th e re fore , w e re com m e nd th at SSA s ubm it a l    e gis l
                                                                        ative propos alto de fine
age attainm e nt as occurring on an individual         ’s birth day.

Th is re com m e ndation w as m ade in th e prior re port, “SocialSe curity

Adm inis tration’ s Incons is te nt Entitle m e nt Pe riod for Pe rs ons Born in th e Sam e

M onth .” SSA did not concur w ith th at re com m e ndation. Itcite d as re as ons th e
im pact of im pl e m e nting th e re com m e ndation on its s y s te m s and program s . In
addition, SSA argue d th at th e s avings w oul      d be ne gl igible ove r th e l
                                                                                  ong te rm .

W e as k e d SSA to provide us w ith an im pact as s e s s m e nt of s taffing re s ource s and
tim e fram e s th at w oul   d be re q uire d to im pl  e m e nt a ch ange to th e popul  ar de finition
of age attainm e nt. SSA re s ponde d th at th e as s e s s m e nt w oul      d cons titute a m ajor
e ffort th at coul d not be unde rtak e n at th at tim e . Spe cifical     y, th e im pact “. . .
                                                                           l
re late s to logic th at e xis ts in al lof SSA ’  s program m atic s y s te m s , e m be dde d in
s om e four m il lion l ine s of code .” SSA e s tim ate d th at th e de te rm ination of h ow
m uch of th is code w oul      d ne e d to be ch ange d and th e com pl     e xity of th e ch ange s
w oul  d tak e at le as t 2 m onth s to com pl   e te .

Al  th ough th e re q uire d ch ange s appe ar to be com pl  e x, SSA h as s ignificant s y s te m s
program ch ange s unde r w ay w h ich provide a pote ntialw indow of opportunity to
im pl  e m e nt our re com m e ndation. Spe cifical  l
                                                     y, SSA is re de s igning its autom ate d
proce s s ing of O A SD I trans actions unde r its titl e IIre de s ign program . In addition,
re program m ing is in proce s s to addre s s th e probl   e m s rais e d by th e approach of th e
ye ar 2000, and to accom m odate th e incre as e in norm alre tire m e nt age from 65 to
67. Incorporating im pl      e m e ntation of our re com m e ndation w ith th e s e proje cts
s h oul  d provide s om e e conom ie s of s cal e.

Conce rning th e l     ong-te rm s avings to be re al ize d from ch anging to th e popul  ar
de finition of age attainm e nt, th e s avings coul     d appe ar ne gl
                                                                      igibl e w h e n com pare d
to ce rtain be nch m ark s . SSA com pare d th e s avings to th e O ffice of th e Ch ie f
A ctuary’  s th re s h old m e as ure of s ignificant l
                                                      ong-te rm s avings , .005 pe rce nt of
ave rage annualtaxabl       e payrol  l. Since ave rage annualpayrol    lfor 19 9 5 w as al  m os t
Page 9 - K e nne th S. A pfe l

$3 trillion, s avings of up to $150 m il   lion could be cons ide re d ne gl  igibl
                                                                                  e . H ow e ve r,
w e cons ide r th e de finition of age attainm e nt a s ignificant is s ue , not only be caus e
th e pote ntial$130 m il   lion s avings w ould incre as e ove r tim e , but be caus e it
invol ve s e q uity and fairne s s .

O TH ER M A TTERS

In its com m e nts to th e prior re port on age attainm e nt, SSA e xpre s s e d conce rn th at
be caus e of its cl                                        e m e nt program s h aving age
                     os e coordination w ith oth e r e ntitl
attainm e nt re q uire m e nts , s uch as M e dicare and th e Rail road Re tire m e nt s y s te m ,
im pl e m e nting our re com m e ndation w oul   d caus e adm inis trative com pl  ications . SSA
re ite rate d its conce rn about th e e ffe ct on M e dicare in its com m e nts to th e re port,
“Firs t M onth of El  igibility.”

In th e prior re vie w of th e de finition of age attainm e nt, w e e xam ine d Medicare
cos ts re late d to th e re com m e ndation containe d th e re in and, bas e d on 19 86 data,
found th at a s im il ar age 65 w indfal     lfor M e dicare be ne ficiarie s born on th e 1s t day
of a m onth w oul    d cos t about $4.6 m il      lion a ye ar. Th at anal y s is and our anal     yses
of th e cos ts to th e O A SD Iprogram indicate th at additionalcos ts re l            ate d to th e
1s t m onth of e ntitle m e nt and th e de finition of age attainm e nt al      s o e xis t for th e s e
program s . Th e re fore , it w oul   d be cons is te nt and l   ogicalth at th e re com m e nde d
ch ange s al s o be im pl  e m e nte d for th e s e e ntitl
                                                          e m e nt program s .

                     CO NCLUSIO NS A ND RECO M M END A TIO NS

Provis ions in curre nt l  aw caus e incons is te ncie s in initiale ntitl   e m e nt pe riods . Th e
totalcos t of th e s e incons is te ncie s is e xpe cte d to be about $1.47 bil        l
                                                                                       ion ove r th e
ne xt 5 ye ars . SSA s h oul    d s ubm it a l      ative propos alto ch ange th e 1s t m onth of
                                              e gis l
e ntitle m e nt and th e de finition of age attainm e nt for O A SD I to e l     im inate th os e
cos ts . W e h ave de te rm ine d th at s im il ar cos ts e xis t for oth e r Fe de ralprogram s
w ith age -bas e d e ntitle m e nts . Th us , in s ubm itting th is propos al   , SSA s h oul d al so
as k th at Congre s s cons ide r appl   ying cons is te nt de finitions for e l        ity and age
                                                                                  igibil
attainm e nt to th os e program s as w e l    l. W e are re com m e nding th at SSA propos e
le gis l
       ation to de fine th e m onth afte r th e individual    ’ s birth day as th e 1s t m onth of
e ntitle m e nt and age attainm e nt as occurring on a pe rs on’        s birth day.

AGENCY CO M M ENTS

In its w ritte n com m e nts to our draft re port, SSA pre s e nte d its rational   e for not
im pl e m e nting our re com m e ndations . SSA be l   ie ve s th at ch anging th e 1s t m onth of
e ntitl             d incre as e re tire m e nt age by 1 m onth for al
       e m e nt w oul                                                    lindividual s re ce iving
Page 10 - K e nne th S. A pfe l

age -bas e d be ne fits e xce pt w ork e rs and s pous e s be com ing e ntitl    e d in th e e arlie s t
m onth of e l igibility. Th is w oul d re s ul
                                             t in low e r be ne fits for pe opl   e w h o re tire or
are w idow e d in th e future . Furth e r, in th e 19 81 l         ation, Congre s s inte ntional
                                                             e gis l                                    ly
                                  st
l
im ite d th e ch ange s in th e 1 m onth of e ntitl   e m e nt to w ork e rs and th e ir

de pe nde nts re tiring at age 62. W ith th e 19 83 am e ndm e nts , Congre s s e ncourage d

de laying re tire m e nt but it did not ch ange th e 19 81 rul     e for de te rm ining th e

 st
1 m onth of e l   igibility. SSA concl    ude d th at th e pre s e nt s y s te m re fle cts w h at
Congre s s inte nde d.

Conce rning th e de finition of age attainm e nt, SSA e xpre s s e d its conce rn about th e
cos ts to ch ange its m ajor proce s s ing program s and s y s te m s . A l       th ough w e be l
                                                                                                 ie ve
th at th e ye ar 2000 initiative provide s an opportunity to incorporate th e ne ce s s ary
ch ange s , th e m agnitude of th e ye ar 2000 conve rs ions coul           d h ave a ne gative
im pact on oth e r pl anne d s y s te m s e nh ance m e nts . SSA adde d th at th e ch ange
w oul d s ignificantly im pact its proce s s ing s y s te m s , ne ce s s itate a m ajor com m itm e nt
of autom ate d data proce s s ing re s ource s , pote ntial    ly incre as e th e num be r of
m anualactions , and give ris e to adm inis trative com pl         ications in its coordination
w ith oth e r age ncie s th at us e th e com m on l aw de finition of age attainm e nt.

SSA concl    ude d th at th e age attainm e nt rul  e s are th e product of s pe cific
congre s s ionalaction. A l   th ough th e rule s vary, SSA be l    ie ve s th e y do s o in a
re as onabl e and appropriate m anne r. In addition, th e rul       e s h ave l  ong be e n a
fe ature of th e SocialSe curity program and are acce pte d by th e publ            ic and w e ll
unde rs tood by SSA e m pl    oye e s . SSA doe s not be l   ie ve th at ch anging th e m to
ach ie ve uniform ity and cons is te ncy is w arrante d, e s pe cial    l
                                                                        y give n th e pote ntial
im pact th e ch ange s coul   d h ave on its abil ity to as s ure th at its com pute r s y s te m s
are ye ar 2000 com pl    iant.

Th e ful  lte xt of SSA ’   s com m e nts are incl
                                                 ude d as A ppe ndix E. In addition, SSA
m ade s e ve ralte ch nicalcom m e nts th at h ave be e n include d in th e re port and,
th e re fore , de l
                  e te d from th e A ge ncy’ s com m e nts .

O IG RESPO NSE

A s note d in th e re port, th e s ize of th e re duction in be ne fits due to ch anging th e
de finition of th e 1s t m onth of e ntitle m e nt w ould be m inim al   ,l  e s s th an $4 pe r
m onth for re tire d w ork e rs . For s urviving s pous e s , it w oul  d be e ve n l   e s s due to th e
s m all
      e r m onth ly re duction factor appl    icable to th e ir be ne fits .

Since Congre s s did not ch ange th e rul        e for de te rm ining th e 1s t m onth of e l
                                                                                            igibil
                                                                                                 ity
w h e n it incre as e d re tire m e nt age th rough th e 19 83 am e ndm e nts , w e m ay as s um e
th at th e rule re fle cts w h at Congre s s inte nde d. H ow e ve r, Congre s s ’inte ntions
Page 11 - K e nne th S. A pfe l

15 ye ars ago s h oul   d not pre ve nt SSA from as k ing Congre s s to re ctify
incons is te ncie s in its program s .

SSA pre s e nte d a num be r of difficul         tie s it w oul d e ncounte r in ch anging th e
de finition of age attainm e nt. D ue to th e com pl             e xity of SSA ’ s program s and
s y s te m s , s im ilar difficul tie s coul d be e xpe cte d for any ch ange s to its program s ,
incl  uding rais ing th e re tire m e nt age to 67 and th e ye ar 2000 initiative .
None th e l   e s s , as pointe d out in th e re port, s om e individual      s are unfairly e nrich e d at
re tire m e nt due to an arch aic de finition of age attainm e nt w h il          e s om e ch ildre n and
s urviving s pous e s s uffe r e arl     y te rm ination of be ne fits . SSA s h oul   d not avoid
ch ange s im pl      y be caus e of th e difficul   tie s th at m igh t be e ncounte re d, e s pe cial
                                                                                                     ly
w h e n ch ange e l     im inate s s uch incons is te ncie s and ine q uitie s .

SSA com m e nte d th at im pl      e m e nting our re com m e ndation m igh t im pact its abil  ity to
as s ure th at its com pute r s y s te m s are ye ar 2000 com patibl   e . H ow e ve r,
im pl e m e ntation of th e re com m e ndations coul     d be de l
                                                                 aye d untilSSA h as com pl       e te d
th is s y s te m s e nh ance m e nt. In th e m e anw h il
                                                        e , SSA s h oul
                                                                      d e xpl ore pos s ibilitie s for
incorporating th e de finition of age attainm e nt into oth e r pl     anne d s y s te m s proje cts ,
s uch as accom m odating th e incre as e in norm alre tire m e nt age to 67.

SSA al  s o e xpre s s e d conce rn about coordinating w ith oth e r age ncie s w h ich us e th e
com m on l  aw de finition of age attainm e nt. W e addre s s e d th is is s ue in our re port,
and re com m e nde d th at SSA as k Congre s s to appl  y cons is te nt de finitions for
el
 igibility and age attainm e nt to th os e program s as w e l l.

W h e th e r or not incons is te ncie s and ine q uitie s h ave be e n acce pte d by th e publ       ic
and are w e l  lunde rs tood by SSA e m pl        oye e s , al
                                                             low ing th e m to continue is doing a
dis s e rvice to th e A m e rican publ    ic. A s note d in th is re port, al le xce pt 1 (th e
Rail road Re tire m e nt Board)of 30 publ         ic and private re tire m e nt s y s te m s s urve ye d in
our re vie w s d e fine d age attainm e nt as occurring on a pe rs on’        s birth day. IfSSA is
to provide w orl    d clas s s e rvice , it s h ould do e ve ryth ing in its pow e r to e ns ure th at
its program s are cons is te nt and e q uitabl       e.




                                                         Jam e s G. H us e , Jr.
A PPEND ICES

                                                                                      A PPEND IX A

            Es tim ate d Re duction in O ld-Age , Survivors , and
                          ity Ins urance Be ne fit Paym e nts
                  D is abil
                 from Ch anging 1s t M onth of Entitl  e m e nt

                                         Re duction in Paym e nts
                                                 (In M il
                                                        lions )
Cale ndar        Re tire d                                   Surviving
Ye ar            W ork e rs            Spous e s              Spous e s                  Total

19 9 8            $    40                $10                      $30                 $ 80
19 9 9                 90                 20                       50                  160
2000                  160                 30                       60                  250
2001                  240                 50                       80                  370
2002                  320                 70                       90                  480

Total
    s             $ 850                  $180                    $310                 $1,340


Note s :

1. Th e s e data are from an anal      y s is pre pare d by th e O ffice of th e Ch ie f A ctuary.
   Th e data w e re bas e d on a propos alto us e a “th rough out th e m onth ”de finition
   of re tire m e nt age for re tire d w ork e rs and s pous e s attaining age 62 in Cal      e ndar
   Ye ar (CY)19 9 8 or l    ate r and for s urviving s pous e s attaining age 60 (or 50, if
   dis abl e d)in CY 19 9 8 or l   ate r. Th is d e finition of re tire m e nt age is th at an
   individualis e ntitl  e d to be ne fits for th e 1s t m onth th rough out w h ich th e
   individualh as attaine d th e re q uis ite age .

2. Th e re duction in be ne fits for de pe nde nts (i.e ., s pous e s and ch il    dre n affe cte d
   be caus e of a de l ay in th e w ork e r’s date of re tire m e nt, but not due to th e ir ow n
   age )w oul   d be l
                     e s s th an $5 m illion pe r ye ar and, th e re fore , is not incl   ude d in
   th e totals . H ow e ve r, in its analy s is , th e O ffice of th e Ch ie f A ctuary s tate d th at
   th e re ductions w oul   d totalapproxim ate l     y $10 m illion ove r th e 5-ye ar pe riod.
                                                                                     A PPEND IX B
                                                                                      Page 1 of 2

       Es tim ate of Num be r of A w ards th at W oul
                                                    d H ave Be e n
                                      st
            Delaye d by Re de fining 1 M onth of Entitl e m e nt
                                              (19 9 5)


                          Cate gory of Be ne ficiary                               Num be r

Re tire d W ork e rs A ge -65 (Note 1)                                             232,200

Spous e s A ge -65 (Note 1)                                                         27,600

Spous e s of A ge -65 Re tire d W ork e rs (Note 2)                                 36,000

Ch il
    dre n of A ge -65 Re tire d W ork e rs (Note 2)                                 13,9 00

Re tire d W ork e rs A ge 62-64 (Note 3)                                            55,400

Spous e s of A ge 62-64 Re tire d W ork e rs (Note 4)                                 8,700

Ch il
    dre n of A ge 62-64 Re tire d W ork e rs (Note 4)                                 3,400

          e d Surviving Spous e s A ge 65 (Note 1)
Non-dis abl                                                                         32,9 00

          e d Surviving Spous e s A ge 60 (Note 1)
Non-dis abl                                                                         78,700

       e d Surviving Spous e s A ge 50 (Note 5)
D is abl                                                                              9 ,500

Total                                                                              49 8,300

In our prior re port, “   Firs t M onth of El igibility,”w e note d th at as fe w as 32 pe rce nt
of age -65 re tire e s re ce ive be ne fits in th e 1s t m onth of e ntitl
                                                                         e m e nt. Th us , onl y
32 pe rce nt of th e 232,200 age -65 re tire d w ork e rs w oul      d h ave h ad th e ir be ne fits
de l
   aye d by 1 m onth . If th is pe rce ntage is cons is te nt th rough out th e various
cate gorie s of be ne ficiarie s , th e num be r th at w oul  d h ave be e n affe cte d in 19 9 5
coul d h ave be e n as l  ow as 159 ,500.


Note s :

1. D ata for re tire d w ork e rs and s pous e s age 65, and nondis abl     e d s urviving
   s pous e s age s 65 and 60 w e re e xtracte d dire ctl    y from th e “A nnualStatis tical
   Suppl e m e nt to th e SocialSe curity Bul    l
                                                 e tin, 19 9 6”(Suppl   e m e nt).
                                                                                     A PPEND IX B
                                                                                      Page 2 of 2

2. Th e 232,200 aw ards to age -65 re tire d w ork e rs re pre s e nt about 14.5 pe rce nt of
   th e 1,59 9 ,000 totalaw ards to re tire d w ork e rs . W e appl    ie d th is pe rce ntage to
   th e totalnum be r of aw ards to s pous e s and ch il    dre n of re tire d w ork e rs provide d
   by th e Suppl  e m e nt to arrive at th e figure s s h ow n.

3. Th e O ffice of th e Ch ie f A ctuary e s tim ate d th at if our re com m e ndation w e re
   im pl e m e nte d, 5 pe rce nt of w ork e rs re tiring be fore th e norm alre tire m e nt age
   w oul  d w ait an additionalm onth to re tire s o th at th e ir be ne fits w oul   d be th e
   s am e as unde r curre nt l   aw . Th e 55,400 e q ual     s 5 pe rce nt of th e aw ards to
   re tire d w ork e rs age 62-64 re porte d in th e Suppl      e m e nt.

4. 	Th e 55,400 aw ards to re tire d w ork e rs age 62-64 re pre s e nt about 3.5 pe rce nt
    of th e 1,59 9 ,000 totalaw ards to re tire d w ork e rs . W e appl   ie d th is pe rce ntage
    to th e totalnum be r of aw ards to s pous e s and ch il  dre n of re tire d w ork e rs
    provide d by th e Suppl e m e nt to arrive at th e figure s s h ow n.

5. Th e Suppl     e m e nt provide d data on aw ards to dis abl
                                                              e d s urviving s pous e s for th e
   group age s 50 to 54 as a total        . Itdid not provide data by ye ar. For th is
   anal y s is , w e cons ide re d th e totalage group to be age 50.
                                                                                    A PPEND IX C

                   Es tim ate d Ch ange in Be ne fit Paym e nts
                       from Re de fining Age A ttainm e nt
                                          (19 9 8-2002)


                                                                  Re duction/(Incre as e )
                  Cate gory of Be ne ficiary                           (In M il
                                                                              lions )

Re tire d w ork e r (pl
                      us d e pe nde nts ), and s pous e                   $130

A ge d w idow /w idow e r and dis abl
                                    e d w idow /w idow e r                      5

    d, young s pous e w ith ch il
Ch il                           d-in-care and w idow e d                        (5)
pare nt

Total                                                                     $130


Note s :

1. Th e s e data are from an anal   y s is pre pare d by th e SocialSe curity
   Adm inis tration’ s O ffice of th e Ch ie f A ctuary.

2. Th e ch ange w as as s um e d e ffe ctive for re tire d w ork e rs and s pous e s attaining
   age 62 in 19 9 8 or l    ate r;for s urviving s pous e s attaining age 60 (or 50)in 19 9 8
   or late r;and for ch il   dre n, young s pous e s , and w idow e d pare nts firs t be com ing
   e ntitle d to be ne fits in 19 9 8 or late r. Th e e s tim ate s are bas e d on th e
   Al te rnative IIas s um ptions of th e 19 9 7 Trus te e s Re port.
                                                                                        A PPEND IX D
                                                                                          Page 1 of 2

             Es tim ate d Num be r of A w ards D e laye d by
       Ch anging to th e Popul ar D e finition of A ge A ttainm e nt
                                                (19 9 5)


                                                               Num be r of Be ne ficiarie s
                    Type of A ction                                    A ffe cte d

Del
  ay in Starting Re tire m e nt Be ne fits (Note 1)                     51,000

Adjus tm e nt of D e l
                     aye d Re tire m e nt Cre dit
(Note 2)                                                                  4,000

Adjus tm e nt of Re duce d Re tire m e nt Be ne fits
(Note 3)                                                                13,000

Total(Be ne fits W ould Be D e l
                               aye d or th e                            68,000
A m ount W oul  d Be Re duce d)

W e obtaine d th e totalnum be r of O l     d-A ge , Survivors , and D is abil    ity Ins urance
(O A SD I)be ne fits aw arde d from th e “SocialSe curity Bul         le tin, A nnualStatis tical
Suppl  e m e nt, 19 9 6.” W e as s um e d th at th e birth days of th e ne w l     y e ntitl
                                                                                           ed
be ne ficiarie s w e re dis tribute d e ve nl
                                            y th rough out th e ye ar. For e ach cate gory of
be ne ficiary, individual   s born on any of 12 days th rough out th e ye ar (i.e ., th e 1s t
day of e ach m onth for m os t, or th e 2nd of th e m onth for oth e rs )w e re affe cte d.
Cons e q ue ntl y, to e s tim ate th e num be r of be ne ficiarie s affe cte d, w e divide d th e
totalnum be r of be ne fits aw arde d by 365 and m ul        tipl ie d th e re s ult by 12.


Note s :

1. Include s    re tire d w ork e rs age s 62 and 65, dis abil     ity conve rs ions age 65,
   s pous e s   age s 62 and 65, s urviving s pous e s age s 60 and 65, dis abl          e d s urviving
   s pous e s   age 50, and a proportionate num be r of ch il          dre n bas e d on th e ratio of
   affe cte d   re tire d w ork e rs to totalre tire d w ork e rs .

2. Incl
      ude s re tire d w ork e rs , s pous e s , and s urviving s pous e s age s 66 to 69 .

3. 	Incl ude s re tire d w ork e rs and s pous e s age s 63 and 64, and s urviving s pous e s
    age s 61 to 64. (W e incl      ude d re tire d w ork e rs and s pous e s age 62, and
    s urviving s pous e s age 60 w ith th os e w h o w oul     d h ave th e ir be ne fits d e l
                                                                                              aye d
    1 m onth . Se e Note 1.)
                                                                                      A PPEND IX D
                                                                                       Page 2 of 2



        Es tim ate d Num be r of Be ne fits Stoppe d Earl
                                                        y D ue to
       Us ing th e Com m on Law D e finition of A ge A ttainm e nt
                                               (19 9 5)

                                                              Num be r of Be ne ficiarie s
                   Type of A ction                                    A ffe cte d

Stopping O A SD IBe ne fits for Ch il
                                    dre n (Note 4)                       8,000

Stopping O A SD IBe ne fits for Spous e s unde r
A ge 62 w ith a Ch il
                    d-in-Care                                            1,000

Stopping O A SD IBe ne fits for Surviving
Spous e s unde r A ge 60 w ith a Ch il
                                     d-in-Care                           1,000

W e obtaine d th e totalnum be r of O A SD Ibe ne fits te rm inate d from th e “Social
Se curity Bul l
              e tin, A nnualStatis ticalSuppl      e m e nt, 19 9 6.” W e as s um e d th at th e
birth days of th e te rm inate d be ne ficiarie s w e re dis tribute d e ve nl y th rough out th e
ye ar. For e ach cate gory of be ne ficiary, individual      s born on any of 12 days
th rough out th e ye ar (i.e ., th e 1s t day of e ach m onth )w e re affe cte d.
Cons e q ue ntl
              y, to e s tim ate th e num be r of be ne ficiarie s affe cte d, w e divide d th e
totalnum be r of be ne fits te rm inate d by 365 and m ul       tiplie d th e re s ul
                                                                                    t by 12.


Note s (Continue d):

4. Include s ch il
                 dre n w h os e be ne fits w e re s toppe d be caus e th e y attaine d age 18
   and s tude nts w h os e be ne fits w e re s toppe d be caus e th e y re ach e d age 19 .
   D oe s not include th os e ch ildre n w h o re ach e d age 18 but w e re aw arde d s tude nt
   be ne fits .
                                                                                   A PPEND IX F

                   M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

W il
   liam Fe rnande z, D ire ctor, Program Audits , W e s t
Scott Patte rs on, D ire ctor, Eval  uations and Te ch nicalSe rvice s
Jim m ie H arris , D e puty D ire ctor
Jack Trude l  , D e puty D ire ctor
Jos e ph Bre w s te r, Se nior Auditor
Carm e n Ch u, Auditor



For additionalcopie s of th is re port, pl   e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Public A ffairs Spe cialis t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -09 -9 7-21003.
